No. 20-1002

a
IN THE
Supreme Court of the Anited States

 

Copy WILLIAM Cox,
Petitioner,
Vv.
DON WILSON,
Respondent.
CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on February 25, 2021, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Petitioner on counsel for each party to the above proceedings as follows:

Andrew John Pincus Gordon Lamar Vaughan

Mayer Brown LLP Vaughan & DeMuro

1999 K Street NW 111 South Tejon Street, Ste. 545
Washington, DC 20006 Colorado Springs, CO 80903
apincus@mayerbrown.com vnd@vaughandemuro.com

(202) 263-3220 (719) 578-5500

Counsel of Record for Petitioner Counsel of Record for Respondent
Cody William Cox Don Wilson

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 25, 2021.

Brianne J; Gorod

Counsel for Amicus Curiae
